fT

C@OCKLE

E-Mail Address:
L ega | Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No, 19-942

LAUREL ZUCKERMAN, AS ANCILLARY ADMINISTRATRIX OF THE ESTATE
OF ALICE LEFFMANN,
Petitioner,
v.
THE METROPOLITAN MUSEUM OF ART,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF THE LAW FIRM OF BYRNE GOLDENBERG & HAMILTON, PLLC IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5980 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths,

fen ereatsaee GENERAL HOTARY-State of Nebraska
RENEE J. GOSS errata) Aepse. 0. tows ¢ deed he Chk

My Comm. Exp. September 6, 2023

 

Notary Public Affiant 39466
